No. 20-___
IN THE

Supreme Court of the United States
_________
KIERNAN J. WHOLEAN
JAMES A. GRILLO,
Petitioners,
v.
CSEA SEIU LOCAL 2001
Respondent.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
_________
PETITION FOR WRIT OF CERTIORARI
_________
JEFFREY D. JENNINGS
Counsel of Record
MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
jdj@nrtw.org
Counsel for Petitioners

i
QUESTION PRESENTED
Is there a “good faith defense” to 42 U.S.C. § 1983
that shields a defendant from damages liability for depriving citizens of their constitutional rights if the defendant acted under color of a law before it was held
unconstitutional?

ii
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT
Petitioners, Plaintiff-Appellants in the court below,
are Kiernan J. Wholean and James A. Grillo.
Respondent, Defendant-Appellee in the court below,
is the CSEA SEIU Local 2001.
Other parties to the original proceedings below who
are not Respondents are Benjamin Barnes, in his official capacity as Secretary of the Office of Policy and
Management, State of Connecticut; Sandra Fae
Brown-Brewton, in her official capacity as Undersecretary of Labor Relations, State of Connecticut; Robert Klee, in his official capacity as Commissioner of
the Department of Energy and Environmental Protection, State of Connecticut.
Because no Petitioner is a corporation, a corporate
disclosure statement is not required under Supreme
Court Rule 29.6.
LIST OF PROCEEDINGS
U.S. Court of Appeals for the Second Circuit, No.
19-1563-cv, Wholean v. CSEA SEIU Local 2001, judgment
entered April 15, 2020, rehearing en banc denied June 9,
2020 mandate issued June 16, 2020.
U.S. District Court for the District of Connecticut, No.
3:18-cv-1008 (WWE), Wholean v. CSEA SEIU Local 2001,
final judgment entered April 29, 2019.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT .........................................ii
LIST OF PROCEEDINGS ..........................................ii
TABLE OF AUTHORITIES........................................ v
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTES INVOLVED ............................................ 1
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE PETITION ......... 6
A. The Wyatt Court Did Not Suggest That a
Defendant’s Reliance on a Statute Should Be
an Affirmative Defense to Section 1983 ................ 8
B. A Good Faith Defense Conflicts with Section
1983’s Text and Retroactivity Law...................... 12
1. A Good Faith Defense Conflicts with
Section 1983’s Text ......................................... 12
2. A Good Faith Defense Conflicts with This
Court’s Retroactivity Doctrine ....................... 15
C. Circuit Courts Disagree on Whether There Is a
Good Faith Defense and the Justifications for
That Defense ........................................................ 16
1. An Analogy to Abuse of Process Does Not
Justify Creating a Good Faith Defense ......... 19
2. Policy Interests in Fairness and Equality
Do Not Justify a Good Faith Defense ............ 21

iv
TABLE OF CONTENTS—Continued
Page
D.

It Is Important That the Court Finally Resolve
Whether Congress Provided a Good Faith
Defense to Section 1983 .................................... 24

CONCLUSION .......................................................... 25
APPENDIX
Opinion of the U.S. Court of Appeals for the Second
Circuit, 955 F.3d 332 (Apr. 15, 2020).....................1a
Opinion and Order of the U.S. District Court for the
District of Connecticut, No. 3:18-cv-1008 (WWE),
2019 WL 1873021 (April 26, 2019) ......................11a
Order of the U.S. Court of Appeals for the Second
Circuit Denying Rehearing En Banc (June 9, 2020)
...............................................................................21a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977).............................................. 2, 3
Anderson v. Myers,
182 F. 223 (C.C.D. Md. 1910) ................................ 14
Danielson v. Inslee,
945 F.3d 1096 (9th Cir. 2019) ........... 4, 5, 12, 18, 23
Diamond v. Pa. State Educ. Ass'n,
972 F.3d 262 (3d Cir. 2020) ........................... passim
Guidry v. Sheet Metal Workers Nat’l Pension Fund,
493 U.S. 365 (1990)................................................ 21
Guinn v. United States,
238 U.S. 347 (1915)................................................ 13
Harper v. Va. Dep't of Tax'n,
509 U.S. 86 (1993).................................................. 15
Imbler v. Pachtman,
424 U.S. 409 (1976)................................................ 12
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018).................................... passim
Janus v. AFSCME, Council 31 (Janus II),
942 F.3d 352 (7th Cir. 2019) ......................... passim
Jordan v. Fox, Rothschild, O’Brien & Frankel,
20 F.3d 1250 (3d Cir. 1994) ................................... 11
Lugar v. Edmondson Oil Co.,
457 U.S. 922 (1982)..................................................6

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Manuel v. City of Joliet,
137 S. Ct. 911 (2017).................................... 8, 19, 20
Mooney v. Ill. Educ. Ass'n.
372 F. Supp. 3d 690 (C.D. Ill. 2019) ....................3, 4
Myers v. Anderson,
238 U.S. 368 (1915)................................................ 13
Ogle v. Ohio Civ. Serv. Emps. Ass’n,
951 F.3d 794 (6th Cir. 2020) ....... 4, 5, 12, 17, 19, 25
Owen v. City of Indep.,
445 U.S. 622 (1980).................................... 21, 22, 23
Pinsky v. Duncan,
79 F.3d 306 (2d Cir. 1996) ..................................... 11
Rehberg v. Paulk,
566 U.S. 356 (2012).................................... 12, 14, 19
Reynoldsville Casket Co. v. Hyde,
514 U.S. 749 (1995)...................................... 7, 15, 16
Richardson v. McKnight,
521 U.S. 399 (1997)............................................ 6, 14
Thomas v. Collins,
323 U.S. 516 (1945)................................................ 20
Tower v. Glover,
467 U.S. 914 (1984)................................................ 21
Tucker v. Interscope Records, Inc.,
515 F.3d 1019 (9th Cir. 2008) ............................... 20

vii
TABLE OF AUTHORITIES
Page(s)
Wholean v. CSEA SEIU Local 2001,
955 F.3d 332 (2d Cir. 2020) .....................................1
Wyatt v. Cole,
504 U.S. 158 (1992)........................................ passim
Wyatt v. Cole,
994 F.2d 1113 (5th Cir. 1993) ............................... 11
Constitution & Statutes
U.S. Const. amend. I ..................................... passim
Federal Statutes
28 U.S.C. § 1254(1) ..................................................1
28 U.S.C. § 1331.......................................................3
28 U.S.C. § 1343.......................................................3
42 U.S.C. § 1983............................................. passim
State Statutes
Conn. Gen. Stat. § 5-280 .........................................3
Other Authorities
8 Am. Law of Torts § 28:32 (2019) ............................ 20
William Baude, Is Qualified Immunity Unlawful?,
106 Cal. L. Rev. 45 (2018) ..................................... 14

1
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Second Circuit is reported at 955 F.3d 332 and
reproduced at Pet. App. 1a. The Second Circuit order
denying rehearing en banc is reproduced at Pet. App.
21a. The Second Circuit affirmed an order and unpublished opinion by the United States District Court
for the District of Connecticut, which is reproduced at
Pet. App. 11a, that dismissed the Petitioners’ complaint.
JURISDICTION
The Second Circuit entered judgment on April 15,
2020. It denied a petition for rehearing en banc on
June 9, 2020. Pet. App. 21a.
In its March 19, 2020 order, this Court extended the
deadline to file a petition for a writ of certiorari to 150
days from the date of an order denying a timely petition for rehearing.
This Court has jurisdiction under 28 U.S.C. §
1254(1).
STATUTES INVOLVED
Section 1983, 42 U.S.C. § 1983, states:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any

2
action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable.
STATEMENT OF THE CASE
On June 27, 2018, the Court in Janus v. AFSCME,
Council 31, 138 S. Ct. 2448 (2018) overruled Abood v.
Detroit Board of Education, 431 U.S. 209 (1977) and
held that it violates the First Amendment for states
and unions to seize agency fees from nonconsenting
employees. 138 S. Ct. at 2486. The Court explained
that “unions have been on notice for years regarding
this Court’s misgiving about Abood” and that, since at
least 2012, “any public-sector union seeking an
agency-fee provision in a collective-bargaining agreement must have understood that the constitutionality
of such a provision was uncertain.” Id. at 2484-85. The
Court also lamented the “considerable windfall” that
unions wrongfully received from employees during
prior decades, finding “[i]t is hard to estimate how
many billions of dollars have been taken from nonmembers and transferred to public-sector unions in violation of the First Amendment.” Id. at 2486.
Petitioners Kiernan J. Wholean and James A. Grillo
are such employees whose First Amendment rights
were violated. They both are employees of the Connecticut Department of Energy and Environmental
Protection who the state government compelled to pay

3
agency fees to Respondent CSEA SEIU Local 2001 before this Court’s decision in Janus. Pet. App. 3a-4a.
Shortly after Janus was decided, Wholean and
Grillo filed suit and sought damages from Local 2001
for agency fees it unconstitutionally seized from them
and a class of similarly situated state employees
within the applicable limitations period. Id. at 4a.
Wholean and Grillo did so under Section 1983, which
provides that “[e]very person who, under color of any
statute” deprives citizens of their constitutional rights
“shall be liable to the party injured in an action at
law[.]” 42 U.S.C. § 1983.1
The district court, however, held that a so-called
“good faith defense” renders defendants who act under
color of presumptively valid statutes not liable to injured parties in an action at law. Pet. App. 18a-19a. It
reasoned that Local 2001 had relied on a state statute
to seize the fees (Conn. Gen. Stat. § 5-280) and it was
constitutional under Abood at the time Local 2001
seized the fees. Id. at 18a. The district court then “incorporate[d]” the reasoning of Mooney v. Illinois Education Association. Id. (incorporating 372 F. Supp. 3d
690 (C.D. Ill. 2019), aff’d 942 F.3d 368 (7th Cir. 2019),
cert. pet. filed. No. 19-1126 (Mar. 10, 2020)). The
Mooney court held that this “good faith defense” is
based on “principles of fairness and equality.” 372 F.
Supp. 3d at 703. It also held that the court did not

1 The district court had jurisdiction over this action based on
both 28 U.S.C. § 1331 and 28 U.S.C. § 1343.

4
need to look to common tort analogies to determine
whether it should recognize a defense to the First
Amendment claim. Id. Based on Mooney, the district
court below concluded that this ostensible defense
shields Local 2001 from liability because it collected
fees in “reliance on existing law.” Id. at 19a.
Wholean and Grillo appealed to the Second Circuit.
It held that Local 2001 was entitled to an affirmative
good faith defense to Section 1983 liability because it
relied on “directly controlling Supreme Court precedent and then-valid state statutes . . . .” Pet. App. 8a.
The court did not identify any other basis or rationale
for this defense.
Three other circuit courts have also held that there
is a good faith defense to Section 1983 that shields unions that acted under agency fee statutes before they
were held unconstitutional from paying damages to
employees. Ogle v. Ohio Civ. Serv. Emps. Ass’n, 951
F.3d 794 (6th Cir. 2020), petition for cert. filed No. 20486 (U.S. Oct. 8, 2020); Janus v. AFSCME, Council
31, 942 F.3d 352 (7th Cir. 2019) (“Janus II”), petition
for cert. filed No. 19-1104 (U.S. Mar. 9, 2020); Danielson v. Inslee, 945 F.3d 1096 (9th Cir. 2019), petition
for cert. filed No. 19-1130 (U.S. Mar. 12, 2020).
The courts, however, cite different rationales for a
good faith defense. The Ninth Circuit—like the district court here—found the defense to be rooted in concerns about equality and fairness. See Danielson, 945
F.3d. at 1101. Conversely, the Sixth Circuit held the

5
defense could be justified by an analogy to the common law tort of abuse of process. 951 F.3d at 797. The
Seventh Circuit also suggested the abuse of process
tort analogy justified the defense. Janus II, 942 F.3d
at 365-66. But it also questioned whether a common
law justification for the good faith defense was even
necessary. Id.
But the Third Circuit rejected the good faith defense
recognized by the Second, Sixth, Seventh, and Ninth
Circuits in Diamond v. Pennsylvania State Education
Association, 972 F.3d 262 (3d Cir. 2020). There were
three separate opinions in Diamond. Judge Rendell
accepted the good faith defense other circuits had recognized. 972 F.3d at 269. Judge Fisher did not, finding
it “beyond our remit to invent defenses to § 1983 liability based on our views of sound policy.” Id. at 274
(Fisher, J., concurring in the judgment). Judge Fisher,
however, found an alternative limit to retroactive liability under Section 1983 based on pre-1871 common
law history. Id. at 278. Judge Phipps rejected both a
good faith defense and Judge Fisher’s alternative
limit on Section 1983’s scope. Id. at 285 (Phipps, J.,
dissenting). Judge Phipps found that “[g]ood faith was
not firmly rooted as an affirmative defense in the common law in 1871, and treating it as one is inconsistent
with the history and the purpose of § 1983.” Id. at 289.
Taking the opinions together, a majority of the Third

6
Circuit panel in Diamond held there is no affirmative
good faith defense to Section 1983.
REASONS FOR GRANTING THE PETITION
Three times this Court has raised, but then not decided, the question of whether there exists a good faith
defense to Section 1983. See Richardson v. McKnight,
521 U.S. 399, 413-14 (1997); Wyatt v. Cole, 504 U.S.
158, 169 (1992); Lugar v. Edmondson Oil Co., 457 U.S.
922, 942 n.23 (1982). The Court should now resolve
this important question to disabuse lower courts of the
misconception that a defendant acting under color of
a statute before it is held unconstitutional always has
an affirmative defense to Section 1983.
That misconceived defense is not the defense members of this Court suggested in Wyatt. Several Justices
in that case wrote that good faith reliance on a statute
could defeat the malice and probable cause elements
of certain constitutional claims. 504 U.S. at 166 n.2
(majority opinion); id. at 172 (Kennedy, J., concurring); id. at 176 n.1 (Rehnquist, C.J., dissenting).
Those Justices were not suggesting that a defendant’s
reliance on a yet to be invalidated statute should be
an affirmative defense to all Section 1983 claims for
damages.
A majority of the Third Circuit panel in Diamond
recognized as much, and rejected the broad good faith
defense recognized by the Second, Sixth, Seventh, and
Ninth Circuits. 972 F.3d at 274 (Fisher, J., concurring
in the judgment); id. at 289-90 (Phipps, J., dissenting).

7
The Court should resolve this disagreement amongst
circuit courts over the existence of this defense.
This is especially so because a good faith defense
cannot be reconciled with Section 1983’s text, which
makes acting “under color of any statute” an element
of the statute that renders defendants “liable to the
party injured in an action at law.” 42 U.S.C. § 1983.
Nor can the defense be reconciled with this Court’s
retroactivity doctrine. See Reynoldsville Casket Co. v.
Hyde, 514 U.S. 749, 753-54 (1995).
The different rationales cited for a good faith defense—either equitable principles, or an analogy to an
abuse of process tort—are all untenable. Courts cannot create equitable exemptions to congressionally enacted statutes like Section 1983. And even if they
could, fairness to victims of constitutional deprivations supports enforcing the statute as written. As for
common law analogies, a First Amendment claim for
compelled subsidization of speech is not so akin to an
abuse of a judicial process as to justify importing that
tort’s malice and probable cause elements into a First
Amendment speech claim.
The Court should reject the proposition that a defendant relying on a state law before it is invalidated
is exempt from compensating injured parties under
Section 1983. It is important that the Court do so. Unless corrected, the lower courts’ misapprehension of
Wyatt will cause tens of thousands of victims of agency
fee seizures to go uncompensated for their injuries. It

8
will also result in victims of other constitutional deprivations not being made whole for their injuries. The
petition should be granted.
A. The Wyatt Court Did Not Suggest That a
Defendant’s Reliance on a Statute Should Be
an Affirmative Defense to Section 1983.
Section 1983 provides a cause of action for the “deprivation of any rights, privileges, or immunities secured by the Constitution and laws.” 42 U.S.C. § 1983.
The elements of different constitutional deprivations
vary considerably. “In defining the contours and prerequisites of a § 1983 claim . . . courts are to look first
to the common law of torts.” Manuel v. City of Joliet,
137 S. Ct. 911, 920 (2017).
The claim in Wyatt was that a private defendant deprived the plaintiff of due process of law when seizing
his property under an ex parte replevin statute. 504
U.S. at 160. The Court found the plaintiff’s due process claims analogous to “malicious prosecution and
abuse of process,” and recognized that at common law
“private defendants could defeat a malicious prosecution or abuse of process action if they acted without
malice and with probable cause.” Id. at 164–65; see id.
at 172–73 (Kennedy, J., concurring) (similar).
The Court in Wyatt held that “[e]ven if there were
sufficient common law support to conclude that respondents . . . should be entitled to a good faith defense, that would still not entitle them to what they
sought and obtained in the courts below: the qualified
immunity from suit accorded government officials . . .

9
.” Id. at 165 (emphasis in original). The reason was,
the “rationales mandating qualified immunity for
public officials are not applicable to private parties.”
Id. at 167. Wyatt left open whether Section 1983 defendants could raise “an affirmative defense based on
good faith and/or probable cause.” Id. at 168–69.
The good faith defense suggested in Wyatt was not a
broad statutory reliance defense to all Section 1983
damages claims, as some courts have concluded. See,
e.g., Janus II, 942 F.3d at 366. Rather, several Justices suggested a defense to Section 1983 claims in
which malice and lack of probable cause are necessary
elements for establishing damages. This is clear from
all three opinions in Wyatt.
Chief Justice Rehnquist, in his dissenting opinion
joined by Justices Thomas and Souter, explained it is
a “misnomer” to use the term good faith “defense” because “under the common law it was plaintiff’s burden
to establish as elements of the tort both that the defendant acted with malice and without probable
cause.” 504 U.S. at 176 n.1 (emphasis in original) (citation omitted). “Referring to the defendant as having
a good-faith defense is a useful shorthand for capturing plaintiff’s burden and the related notion that a defendant could avoid liability by establishing either a
lack of malice or the presence of probable cause.” Id.
(emphasis in original).
Justice Kennedy, in his concurring opinion joined by
Justice Scalia, agreed that “it is something of a misnomer to describe the common law as creating a good-

10
faith defense; we are in fact concerned with the essence of the wrong itself, with the essential elements
of the tort.” Id. at 172. Justice Kennedy explained that
“[t]the common-law tort actions most analogous to the
action commenced here are malicious prosecution and
abuse of process,” and that in both actions “it was essential for the plaintiff to prove that the wrongdoer
acted with malice and without probable cause.” Id.
Justice Kennedy found that because “a private individual’s reliance on a statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law . . . lack of probable cause can
only be shown through proof of subjective bad faith.”
Id. at 174.
Finally, Justice O’Connor’s majority opinion in Wyatt recognized that the good faith defense discussed in
the dissenting and concurring opinions was in reality
a defense to a plaintiff proving malice and lack of
probable cause. Id. at 166 n.2. The majority opinion
found that “[o]ne could reasonably infer from the fact
that a plaintiff’s malicious prosecution or abuse of process action failed if she could not affirmatively establish both malice and want of probable cause that
plaintiffs bringing an analogous suit under § 1983
should be required to make a similar showing to sustain a § 1983 cause of action.” Id.
On remand in Wyatt, the Fifth Circuit recognized
that this Court “focused its inquiry on the elements of
these torts.” Wyatt v. Cole, 994 F.2d 1113, 1119 (5th
Cir. 1993). It therefore found “that plaintiffs seeking
to recover on these theories were required to prove

11
that defendants acted with malice and without probable cause.” Id. The Third and Second Circuits followed suit in cases also arising from abuses of judicial
processes and held the defendants could defeat the
malice and probable cause elements of those claims by
showing good faith reliance on a statute. See Jordan
v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250,
1276 & n.31 (3d Cir. 1994); Pinsky v. Duncan, 79 F.3d
306, 312–13 (2d Cir. 1996).
More recently, Judge Fisher of the Third Circuit recognized that the defense discussed in Wyatt is
“whether the defendant acted with malice and without probable cause.” Diamond, 972 F.3d at 278-79
(Fisher, J., concurring in the judgment). Judge Fisher
recognized that this defense does not “appl[y] categorically to all cases involving private-party defendants,”
but rather depends on the claim at issue. Id. at 279.
Judge Phipps similarly recognized that Chief Justice
Rehnquist’s discussion of a good faith defense “actually referred to elements of the common-law torts of
malicious prosecution and abuse of process,” and that
he “identified no authority for the proposition that
good faith functions as transsubstantive affirmative
defense–applicable across a broad class of claims . . .”
Id. at 287 (Phipps, J., dissenting).
The Second, Sixth, Seventh, and Ninth Circuits
erred in interpreting Wyatt to signal that a defendant
who relies on a statute before it is held unconstitutional always has an affirmative “good faith” defense
to Section 1983 damages. See Pet. App. 8a; Ogle, 951
F.3d at 797; Janus II, 942 F.3d at 366; Danielson, 945

12
F.3d at 1101-02. The Court in Wyatt was suggesting
nothing of the sort. Indeed, such a statutory reliance
defense would conflict with both Section 1983’s plain
language and this Court’s retroactivity doctrine.
B. A Good Faith Defense Conflicts with Section
1983’s Text and Retroactivity Law.
1. A Good Faith Defense Conflicts with Section
1983’s Text.
Section 1983 states, in relevant part, that “[e]very
person who, under color of any statute, ordinance, regulation, custom, or usage, of any State” deprives a citizen of a constitutional right “shall be liable to the
party injured in an action at law, suit in equity, or
other proper proceeding for redress.” 42 U.S.C. § 1983
(emphasis added). Section 1983 means what it says.
“Under the terms of the statute, ‘[e]very person who
acts under color of state law to deprive another of a
constitutional right [is] answerable to that person in
a suit for damages.’” Rehberg v. Paulk, 566 U.S. 356,
361 (2012) (quoting Imbler v. Pachtman, 424 U.S. 409,
417 (1976)).
It turns Section 1983 on its head to conclude that
persons who act under the color of state laws that are
later held unconstitutional are not liable to the injured parties in a suit for damages. The proposition
effectively makes a statutory element of Section
1983—that defendants must act under color of state

13
law—a defense to Section 1983.2 An affirmative defense predicated on a defendant’s reliance on a state
law cannot be reconciled with Section 1983’s plain language.
The Court rejected a comparable defense over one
hundred years ago in Myers v. Anderson, 238 U.S. 368
(1915). There, the Court held that a statute violated
the Fifteenth Amendment’s ban on racial discrimination in voting. Id. at 380. The defendants argued that
they were not liable for money damages under Section
1983 because they acted on a good faith belief that the
statute was constitutional. The Court noted that
“[t]he nonliability . . . of the election officers for their
official conduct is seriously pressed in argument.” Id.
at 378. The Court rejected the contention for being
contrary to its decision in Guinn v. United States, 238
U.S. 347 (1915) and “the very terms” of the statute. Id.
at 379 (emphasis added).3
2 Defendants in Section 1983 actions will almost always act
under color of state laws that have not been held invalid at the
time, because it is difficult for a party to invoke a state law that
a court has already declared to be unconstitutional.

The lower court, whose judgment this Court affirmed, was
more explicit in its reasoning:
3

[A]ny state law commanding such deprivation or
abridgment is nugatory and not to be obeyed by any
one; and any one who does enforce it does so at his
known peril and is made liable to an action for damages
. . . in the suit, and no allegation of malice need be alleged or proved.
Anderson v. Myers, 182 F. 223, 230 (C.C.D. Md. 1910).

14
It is telling that the Second Circuit here, as well as
the Sixth and Ninth Circuits, made no attempt to
square a good faith defense with Section 1983’s text.
The Seventh Circuit’s only response to the argument
that it violates Section 1983’s text to deem a defendant’s reliance on state law an affirmative defense to
this statute was to claim this Court “abandoned”
strictly following Section 1983’s language when recognizing immunities. Janus II, 942 F.3d at 362.
To the contrary, the Court has held that “[w]e do not
simply make our own judgment about the need for immunity,” and “do not have a license to create immunities based solely on our view of sound policy.” Rehberg,
566 U.S. at 363. The Court accords an immunity only
when a “tradition of immunity was so firmly rooted in
the common law and was supported by such strong
policy reasons that ‘Congress would have specifically
so provided had it wished to abolish the doctrine’”
when it enacted Section 1983. Richardson, 521 U.S. at
403 (quoting Wyatt, 504 U.S. at 164).
Unlike with immunities, “there is no common-law
history before 1871 of private parties enjoying a goodfaith defense to constitutional claims.” Janus II, 942
F.3d at 364; see Diamond, 972 F.3d at 288 (finding “[a]
good faith defense is inconsistent with the history of
the Civil Rights Act of 1871”) (Phipps, J., dissenting);
William Baude, Is Qualified Immunity Unlawful?, 106 Cal. L. Rev. 45, 55 (2018) (finding “[t]here
was no well-established, good faith defense in suits
about constitutional violations when Section 1983 was

15
enacted, nor in Section 1983 suits early after its enactment.”). Thus, unlike with immunities, there is no
justification for deviating from Section 1983’s mandate that “[e]very person who, under color of any statute” deprives a citizen of a constitutional right “shall
be liable to the party injured in an action at law.” 42
U.S.C. § 1983.
2. A Good Faith Defense Conflicts with This
Court’s Retroactivity Doctrine.
Janus has retroactive effect under the rule this
Court announced in Harper v. Virginia Department of
Taxation, 509 U.S. 86, 97 (1993) and applied in Reynoldsville Casket, 514 U.S. at 759. The good faith defense the Second Circuit and other courts have fashioned to defeat Janus’ retroactive effect is indistinguishable from the reliance defense this Court held
invalid for violating retroactivity principles in Reynoldsville Casket.
Reynoldsville Casket concerned an Ohio statute that
effectively granted plaintiffs a longer statute of limitations for suing out-of-state defendants. 514 U.S. at
751. This Court had earlier held the statute unconstitutional. Id. An Ohio state court, however, permitted
a plaintiff to proceed with a lawsuit that was filed under the statute before this Court invalidated it. Id. at
751-52. The plaintiff asserted this was a permissible,
equitable remedy because she relied on the statute before it was held unconstitutional. Id. at 753 (describing the state court’s remedy “as a state law ‘equitable’
device [based on] reasons of reliance and fairness”).

16
This Court rejected that contention, holding the state
court could not do an end run around retroactivity by
creating an equitable remedy based on a party’s reliance on a statute later held unconstitutional by this
Court. Id. at 759.
The Second Circuit engaged in just such an end run
here. It created a defense based on a defendant’s reliance on a statute before it was effectively deemed unconstitutional by a decision of this Court. The Second
Circuit’s good faith reliance defense is incompatible
with this Court’s retroactivity doctrine.
C. Circuit Courts Disagree on Whether There
Is a Good Faith Defense and the Justifications for That Defense.
A majority of the opinions in Diamond rejected the
good faith defense recognized by the Second, Sixth,
Seventh, and Ninth Circuits. 972 F.3d at 274 (Fisher,
J., concurring in the judgment); id. at 289-90 (Phipps,
J., dissenting). While Judge Fisher in Diamond found
a different exemption to retroactive liability under
Section 1983, see id. at 284,4 the relevant point here is
4

Judge Fisher’s limit on retroactive liability under Section
1983 and a good faith defense have different elements and rationales. The latter is purported to be an affirmative defense that
applies when a defendant relies in good faith on presumptively
valid law, see Pet. App. 8a, and is based on equitable interests or
a tort analogy, see infra 16-23. Judge Fisher found, based on pre1871 common law history, that a court decision that invalidates
a statute or overrules a decision does not generate Section 1983
liability “except where duress or fraud was present.” Diamond,
972 F.3d at 284. Judge Fisher’s proffered limit on Section 1983’s

17
that the circuit courts disagree on whether there exists an affirmative good faith defense to Section 1983.
The Court should resolve that disagreement.
Even the circuit courts that have recognized a good
faith defense disagree on the basis for that defense.5
The Sixth Circuit held that it “looks to the most closely
analogous tort at common law in deciding whether
private defendants may assert a good-faith defense to
certain § 1983 claims.” 951 F.3d at 797. The Court concluded that the union in that case could assert the defense because “abuse of process is the most plausible
common-law tort analogue to employees’ post-Janus
First Amendment claims.” Id.
The Seventh Circuit in Janus II stated that the
“search for the best [tort] analogy is a fool’s errand.”
942 F.3d at 365. The court found “reasonable arguments for several different torts,” though it was “inclined to agree . . . that abuse of process comes closest.”
Id. Ultimately, the Seventh Circuit chose to “leave
common-law analogies behind.” Id. at 366.
The Ninth Circuit in Danielson also held a good faith
defense is not rooted in common law. 945 F.3d at 1101.
scope is untenable for the reasons stated by Judge Phipps in his
dissent in Diamond, 972 F.3d at 287-88, and because it conflicts
with this Court’s retroactivity doctrine.
5 The Second Circuit below did not explain the basis for the
good faith defense it recognized other than citing Wyatt as recognizing such a defense, and held that defendants who rely “directly [on] controlling Supreme Court precedent and then-valid
state statutes . . . .” have such a defense. Pet. App. 8a.

18
The court held “the availability of the defense arises
out of general principles of equality and fairness—values that are inconsistent with rigid adherence to the
oft-arbitrary elements of common law torts as they
stood in 1871.” Id. According to the Ninth Circuit, “[i]t
would be an odd result for an affirmative defense
grounded in concerns for equality and fairness to
hinge upon historical idiosyncrasies and strained legal analogies for causes of action with no clear parallel
in nineteenth century tort law.” Id. But the Court alternatively held that, if common law analogies mattered, “abuse of process provides the best analogy to
Plaintiffs’ claim.” Id. at 1102.
The lower courts’ struggle to agree upon a basis for
recognizing a good faith defense is additional reason
for the Court to grant review. This is especially true
given that neither common law tort analogies, nor equity support recognizing this defense to Section 1983.
In Diamond, Judge Fisher recognized that courts
cannot just “invent defenses to § 1983 liability based
on our views of sound policy.” 972 F.3d at 274 (Fisher,
J., concurring in the judgment). He also found “the
torts of abuse of process and malicious prosecution
provide at best attenuated analogies” to a First
Amendment compelled speech claim. Id. at 280. Judge
Phipps rejected both rationales for a good faith defense. Id. at 288-90 (Phipps, J., dissenting). As discussed below, Judge Phipps was right. Neither tort
analogies, nor equity can justify creating this new affirmative defense to Section 1983.

19
1.

An Analogy to Abuse of Process Does Not
Justify Creating a Good Faith Defense.
The Sixth Circuit suggested that abuse of process is
analogous to a First Amendment compelled speech
claim. Ogle, 951 F.3d at 797. “Common-law principles
are meant to guide rather than to control the definition of § 1983 claims.” Manuel, 137 S. Ct. at 921.
“Sometimes . . . [a] review of common law will lead a
court to adopt wholesale the rules that would apply in
a suit involving the most analogous tort. But not always.” Id. at 920-21 (citations omitted). Some Section
1983 claims have no common law equivalent. “[Section] 1983 is not simply a federalized amalgamation of
pre-existing common-law claims.’” Id. at 921 (quoting
Rehberg, 566 U.S. at 366).
A First Amendment claim for compelled subsidization of speech has no common law equivalent. “Compelling a person to subsidize the speech of other private speakers” violates the First Amendment because
it undermines “our democratic form of government”
and leads to individuals being “coerced into betraying
their convictions.” Janus, 138 S. Ct. at 2464. This injury is unlike that caused by common law torts. It is
peculiar to the First Amendment.
A violation of First Amendment speech rights is
nothing like an abuse of process tort. “[T]he tort of
abuse of process requires misuse of a judicial process.”
Tucker v. Interscope Records, Inc., 515 F.3d 1019, 1037
(9th Cir. 2008). The tort exists to protect the integrity
of the judicial process and to protect litigants from

20
harassment. See 8 Am. Law of Torts § 28:32 (2019).
The tort does not exist, as the First Amendment does,
“to foreclose public authority from assuming a guardianship of the public mind through regulating the
press, speech, and religion.” Thomas v. Collins, 323
U.S. 516, 545 (1945) (Jackson, J., concurring).
Abuse of process is certainly not so similar to a compelled subsidization of speech claim to justify making
malice and lack of probable cause elements of that constitutional claim. And that is the only potential relevance of common law analogies—to determine
whether to import a tort’s elements into a particular
Section 1983 claim. See Manuel, 137 S. Ct. at 920-21.
Malice and lack of probable cause are not elements
of a First Amendment claim under Janus. Under Janus, a union deprives employees of their First Amendment rights by taking their money without affirmative consent. 138 S. Ct. at 2486. A union’s intent when
doing so is immaterial. The limited good faith defense
members of this Court suggested in Wyatt offers no
protection to unions that violated dissenting employees’ First Amendment rights under Janus.
2. Policy Interests in Fairness and Equality Do
Not Justify a Good Faith Defense.
a. Courts cannot refuse to enforce federal statutes
because they believe it unfair to do so. “As a general
matter, courts should be loath to announce equitable
exceptions to legislative requirements or prohibitions
that are unqualified by the statutory text.” Guidry v.
Sheet Metal Workers Nat’l Pension Fund, 493 U.S.

21
365, 376 (1990). “It is for Congress to determine
whether § 1983 litigation has become too burdensome
. . . and if so, what remedial action is appropriate.”
Tower v. Glover, 467 U.S. 914, 922–23 (1984). The
“fairness” rationale for a good faith defense to Section
1983 is inadequate on its own terms.
In any event, fairness to victims of constitutional
deprivations requires enforcing Section 1983’s text as
written. It is not fair to make employees pay for unconstitutional union conduct. Nor is it fair to let
wrongdoers keep ill-gotten gains. “[E]lemental notions of fairness dictate that one who causes a loss
should bear the loss.” Owen v. City of Indep., 445 U.S.
622, 654 (1980).
The Court wrote those words in Owen when holding
that Section 1983’s legislative purposes did not justify
extending good faith immunity to municipalities. The
Court’s reasons for so holding apply here.
First, the Court reasoned that “many victims of municipal malfeasance would be left remediless if the city
were also allowed to assert a good-faith defense,” and
that “[u]nless countervailing considerations counsel
otherwise, the injustice of such a result should not be
tolerated.” Id. at 651 (footnote omitted). So too here.
It would be an injustice to leave innocent victims of
agency fee seizures and other constitutional violations
remediless for their injuries.
Second, the Court recognized that Congress enacted
Section 1983 to “serve as a deterrent against future
constitutional deprivations.” Id. “The knowledge that

22
a municipality will be liable for all of its injurious conduct, whether committed in good faith or not, should
create an incentive for officials who may harbor
doubts about the lawfulness of their intended actions
to err on the side of protecting citizens’ constitutional
rights.” Id. at 651–52 (footnote omitted). This deterrence interest also weighs against a reliance defense,
which will encourage defendants to risk infringing on
constitutional rights by limiting their exposure for so
doing.
Third, the Owen Court reasoned that “even where
some constitutional development could not have been
foreseen by municipal officials, it is fairer to allocate
any resulting financial loss” to the entity that caused
the harm “than to allow its impact to be felt solely by
those whose rights, albeit newly recognized, have
been violated.” Id. at 655. So too here. It is not fair to
have Wholean and Grillo pay for Local 2001’s unconstitutional conduct. Equity favors requiring Local
2001 to return the monies it unconstitutionally seized
from them.
b. As for the proposition that principles of “equality”
justify extending to private defendants a defense similar to the immunity enjoyed by some public defendants, see Danielson, 945 F.3d at 1101, that proposition
makes little sense. That unions are not entitled to
qualified immunity is not reason to create a similar
defense for unions. Courts do not award defenses to
parties as consolation prizes for failing to meet the criteria for an immunity.

23
Even if principles of equality required treating Local 2001 like its closest government counterpart, that
still would not entitle it to an immunity-like defense.
An organization like Local 2001 is nothing like individual persons who enjoy qualified immunity. Local
2001 is most like a governmental body that lacks qualified immunity—a municipality. Owen, 445 U.S. at
654. “It hardly seems unjust to require a municipal
defendant which has violated a citizen’s constitutional
rights to compensate him for the injury suffered
thereby.” Id. Nor is it unjust to require an organization, like the Local 2001, to compensate the public employees it represents for violating their constitutional
rights.
Neither fairness nor equality justifies recognizing a
good faith defense to Section 1983. Rather, both principles weigh against carving this exemption into Section 1983’s remedial framework.
D.

It Is Important That the Court Finally
Resolve Whether Congress Provided a Good
Faith Defense to Section 1983.
Section 1983 is the nation’s preeminent civil rights
statute and is often used by citizens to protect their
constitutional rights. It is no small matter when lower
courts create a new affirmative defense to Section
1983 liability.
Several circuit courts have now done just that based
largely on the misconception that this Court in Wyatt
signaled that private defendants should be granted a

24
defense to Section 1983 liability akin to qualified immunity. Yet Wyatt did not suggest such a defense, but
only suggested that reliance on a statute could defeat
the malice and lack of probable cause elements of certain due process claims. See supra 8-12. The Court
should clarify what it meant in Wyatt.
It is important the Court act quickly because
whether tens of thousands of victims of agency fee seizures can receive compensation hangs in the balance.
Over 37 class action lawsuits are pending that seek
refunds from unions for agency fees they seized from
workers in violation of their First Amendment rights.
See Amicus Br. of Goldwater Inst. et al., 4, Janus v.
AFSCME, Council 31, No. 19-1104 (Apr. 9, 2020). The
vast majority of these cases are in or from the Second,
Third, Sixth, Seventh, and Ninth Circuits, which have
accepted a defense to these unconstitutional agency
fee seizures. Id. at 1a-6a (listing cases). Most individual actions seeking a return of agency fees also are in
these circuits. See id. at 7a-9a. The employees in these
suits should be permitted to recover a portion of the
“windfall,” Janus, 138 S. Ct. at 2486, of compulsory
fees unions wrongfully seized from them. But without
this Court’s review, these employees will be denied relief.
The importance of the question presented extends
beyond victims of agency fee seizures to victims of
other constitutional deprivations. The Sixth Circuit
acknowledged that its decision could shield from liability defendants that invoke state law processes to

25
discriminate against individuals on the basis of “race,
gender, or faith.” Ogle, 951 F.3d at 797.
The purpose of Section 1983 is to provide damages
to citizens who have been injured by actions taken under color of state law in violation of their constitutional rights. See Diamond, 972 F.3d at 288-89
(Phipps, J., dissenting). A good faith defense is inconsistent with that purpose. Id. The Court should grant
review to repudiate this ostensible new defense to Section 1983.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
OCTOBER 30, 2020

JEFFREY D. JENNINGS
Counsel of Record
MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
jdj@nrtw.org

1a
APPENDIX A
955 F.3d 332
United States Court of Appeals,
Second Circuit.
Kiernan J. WHOLEAN and James A. Grillo,
Plaintiffs-Appellants,
Lakeisha Christopher, Plaintiff,
v.
CSEA SEIU LOCAL 2001; Benjamin Barnes, in
his official capacity as Secretary of the Office of
Policy and Management, State of Connecticut;
Sandra Fae Brown-Brewton, in her official capacity as Undersecretary of Labor Relations, State of
Connecticut; Robert Klee, in his official capacity as
Commissioner of the Department of Energy and
Environmental Protection, State of Connecticut,
Defendants-Appellees,
Kevin Lembo, in his official capacity as Comptroller, State of Connecticut,
Defendant.
No. 19-1563-cv
|

2a
August Term 2019
|
Argued: December 12, 2019
|
Decided: April 15, 2020
Synopsis
Background: Non-union state employees filed § 1983
action against state officials and union seeking return
of fair-share union fees they had paid to union as condition of their employment, in violation of First
Amendment. The United States District Court for the
District of Connecticut, Warren W. Eginton, Senior
District Judge, 2019 WL 1873021, dismissed complaint, and employees appealed.
The Court of Appeals, Reiss, District Judge, sitting by
designation, held that good faith defense barred employees’ § 1983 claim for return of fair-share union
fees.
Affirmed.
Before: Cabranes and Lohier, Circuit Judges, and
Reiss, District Judge.
Opinion
Christina Reiss, District Judge:



Judge Christina Reiss, of the United States District Court for
the District of Vermont, sitting by designation.

3a
Plaintiffs-Appellants Kiernan J. Wholean and James
A. Grillo contend that the United States District
Court for the District of Connecticut (Eginton, J.) improperly dismissed their First and Fourteenth
Amendment claims brought pursuant to 42 U.S.C. §
1983 against Defendants-Appellees CSEA SEIU Local
2001 (“Local 2001”); Benjamin Barnes, Secretary of
the Office of Policy and Management for the State of
Connecticut; Sandra Fae Brown-Brewton, Undersecretary of Labor Relations for the State of Connecticut;
and Robert Klee, Commissioner of the Department of
Energy and Environmental Protection for the State of
Connecticut (collectively, “Appellees”). We hold that a
good-faith defense applies to Appellees’ collection of
fair-share union fees from Appellants and therefore
AFFIRM the District Court’s dismissal of Appellants’
Second Amended Complaint.
I. BACKGROUND
Appellants Kiernan J. Wholean and James A. Grillo
are employees of the State of Connecticut. Appellee
Local 2001 is a union that represents State of Connecticut employees. The remaining Appellees are
State of Connecticut officials.1
On June 13, 2018, Appellants, who are not members
Although Appellants appealed the entirety of the District
Court’s decision and judgment in their notice of appeal, in their
brief they abandon their appeal of the District Court’s dismissal
of their claims against the State of Connecticut officials. See Appellants’ Br. at 3 n.1 (“[Appellants] also sued certain officials of
the Connecticut state government but they do not appeal the
[D]istrict [C]ourt’s dismissal of their claims against the State Defendants.”).
1

4a
of Local 2001, filed a Complaint against Appellees, asserting that they were forced to pay fair-share union
fees to Local 2001 as a condition of their employment
in violation of the First Amendment to the United
States Constitution. *334 Appellees admit that they
collected fair-share fees from Appellants, but contend
they were entitled to do so under applicable law. During the pendency of Appellants’ lawsuit, the United
States Supreme Court decided Janus v. American
Federation of State, County, and Municipal Employees
(“AFSCME”), Council 31, ––– U.S. ––––, 138 S. Ct.
2448, 201 L.Ed.2d 924 (2018) wherein it overruled
Abood v. Detroit Board of Education, 431 U.S. 209, 97
S. Ct. 1782, 52 L.Ed.2d 261 (1977), to hold that the
collection of fair-share fees from public-sector employees violated the First Amendment because they
“forced [nonmembers] to subsidize a union, even if
they choose not to join and strongly object to the positions the union takes in collective bargaining and related activities,” thereby “compelling them to subsidize private speech on matters of substantial public
concern.” Id. at 2459-60.
After Janus was decided, Appellees ceased deducting
fair-share fees from Appellants’ pay and refunded any
such fees collected post-Janus. Thereafter, Appellants
amended their Complaint to seek the return pursuant
to 42 U.S.C. § 1983 of all fair-share fees collected by
Appellees pre-Janus allegedly in violation of the First
and Fourteenth Amendments to the United States
Constitution.
On October 1, 2018, Appellees moved to dismiss the
First Amended Complaint, asserting a good-faith defense based upon their compliance with Conn. Gen.

5a
Stat. § 5-280 (authorizing, among other things, the
collection of fair-share fees from non-members) and
directly controlling Supreme Court precedent that
rendered the collection of fair-share fees from nonconsenting, non-waiving, non-member public-sector
employees lawful. See Abood, 431 U.S. at 235-36, 97
S.Ct. 1782. While the motion to dismiss was pending,
Appellants filed a Second Amended Complaint.
On April 26, 2019, the District Court dismissed the
Second Amended Complaint, finding Appellants’
claims for declaratory judgment and injunctive relief
were moot based on Janus. With regard to Appellants’
assertion that Local 2001 continued to violate the
First and Fourteenth Amendments by retaining preJanus fees, the District Court concluded those claims
were barred by the defense of good-faith adherence to
existing precedent.
II. DISCUSSION
The Second Circuit reviews a district court’s dismissal
of a complaint de novo using the same standard employed by the district court. See Purcell v. N.Y. Inst. of
Tech. – Coll. of Osteopathic Med., 931 F.3d 59, 62 (2d
Cir. 2019). Appellants urge this court to reverse on
two grounds.
First, Appellants contend that 42 U.S.C. § 1983 does
not recognize a good-faith defense beyond qualified
immunity. They assert one cannot be implied because
a First Amendment violation does not turn on a violator’s motive and there is no analogous common law
tort from which a good-faith defense may be extrapolated. Second, Appellants urge this court to find that

6a
Appellees should have anticipated Janus and ceased
collecting fair-share fees on that basis.
We hold that a party who complied with directly controlling Supreme Court precedent in collecting fairshare fees cannot be held liable for monetary damages
under § 1983. In so holding, we do not write on a blank
slate. The Supreme Court in Wyatt v. Cole, 504 U.S.
158, 168, 112 S.Ct. 1827, 118 L.Ed.2d 504 (1992), observed that “principles of equality and fairness may
suggest ... that private citizens who rely unsuspectingly on state laws they did not create and may have
no reason to believe are invalid should have some
*335 protection from liability, as do their government
counterparts.” Although the Court ultimately held
that private defendants are not entitled to qualified
immunity, the Court refused to “foreclose the possibility that private defendants faced with § 1983 liability
... could be entitled to an affirmative defense based on
good faith and/or probable cause.” Id. at 169, 112 S.Ct.
1827; see also id. at 168, 112 S.Ct. 1827 (noting that
the interests underlying a good-faith defense “are not
sufficiently similar to the traditional purposes of qualified immunity to justify such an expansion” of immunity to private parties). Indeed, in Wyatt, several
Justices opined that a good-faith defense for private
individuals who rely on precedent has always existed.
See id. at 174, 112 S.Ct. 1827 (Kennedy, J., concurring) (joined by Justice Scalia in finding “support in
the common law for the proposition that a private individual’s reliance on a statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law”); id. at 176, 112 S.Ct. 1827
(Rehnquist, J., dissenting) (joined by Justices Souter
and Thomas in stating “it is clear that at the time §

7a
1983 was adopted, there generally was available to
private parties a good-faith defense to the torts of malicious prosecution and abuse of process”) (footnote
omitted).
Since Wyatt, every Circuit Court of Appeals to have
considered the question has held that a good-faith defense exists under § 1983 for private individuals and
entities acting under the color of state law who comply
with applicable law, including three circuits who have
concluded that a good-faith defense is available to unions that relied on Abood and applicable state law in
collecting fair-share fees prior to Janus.2
See, e.g., Ogle v. Ohio Civil Serv. Emps. Ass’n, 951 F.3d 794, 797
(6th Cir. 2020) (“A narrow good-faith defense protects those who
unwittingly cross that line in reliance on a presumptively valid
state law—those who had good cause in other words to call on
the governmental process in the first instance.”); Lee v. Ohio
Educ. Ass’n, 951 F.3d 386, 390-91 (6th Cir. 2020) (“[A] consensus
has emerged among the lower courts that while a private party
acting under color of state law does not enjoy qualified immunity
from suit, it is entitled to raise a good-faith defense to liability
under section 1983 [including for pre-Janus collection of fairshare fees.] ... We now add our voice to that chorus.”) (citations
and internal quotation marks omitted); Danielson v. Inslee, 945
F.3d 1096, 1097 (9th Cir. 2019) (“[j]oining a growing consensus”
following Janus in holding that “private parties may invoke an
affirmative defense of good faith to retrospective monetary liability under 42 U.S.C. § 1983, where they acted in direct reliance
on then-binding Supreme Court precedent and presumptivelyvalid state law”); Janus v. AFSCME, 942 F.3d 352, 366 (7th Cir.
2019) (holding on remand that until the Supreme Court “said
otherwise, AFSCME had a legal right to receive and spend fairshare fees collected from nonmembers as long as it complied with
state law and the Abood line of cases. It did not demonstrate bad
faith when it followed these rules”); Clement v. City of Glendale,
518 F.3d 1090, 1097 (9th Cir. 2008) (holding that a towing company was entitled to assert a good-faith defense to a Fourteenth
2

8a
Consistent with Wyatt, a 2016 panel of this court
found “a good faith defense was available to a private
defendant sued under *336 § 1983 for a First Amendment violation.” Jarvis v. Cuomo, 660 F. App’x 72, 75
(2d Cir. 2016), cert. denied, ––– U.S. ––––, 137 S. Ct.
1204, 197 L.Ed.2d 246 (2017). In Jarvis, the lack of a
scienter element for a First Amendment violation did
not defeat the recognition of a good-faith defense because “unlike standard defenses, affirmative defenses
need not relate to or rebut specific elements of an underlying claim.” Id. (citing Black’s Law Dictionary 482
(9th ed. 2009)). We find Jarvis well-reasoned. Because
Appellees collected fair-share fees in reliance on directly controlling Supreme Court precedent and thenvalid state statutes, their reliance was objectively reasonable, and they are entitled to a “good-faith” defense
as a matter of law. See Pinsky v. Duncan, 79 F.3d 306,
313 (2d Cir. 1996) (“There is common law authority
that it is objectively reasonable to act on the basis of a
statute not yet held invalid.”); Jarvis, 660 F. App’x at
76 (affirming the district court’s application of the
Amendment due process claim based on the lack of notice to a
towed vehicle’s owner because “[t]he company did its best to follow the law and had no reason to suspect that there would be a
constitutional challenge to its actions”); Jordan v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250, 1276 (3d Cir. 1994) (recognizing a good-faith defense under § 1983 for due process deprivations); Wyatt v. Cole, 994 F.2d 1113, 1120 (5th Cir. 1993),
cert. denied, 510 U.S. 977, 114 S.Ct. 470, 126 L.Ed.2d 421 (1993)
(on remand from the Supreme Court, holding that “private defendants, at least those invoking ex parte prejudgment statutes,
should not be held liable under § 1983 absent a showing of malice
and evidence that they either knew or should have known of the
statute’s constitutional infirmity”).

9a
good-faith defense because “CSEA relied on a validly
enacted state law and the controlling weight of Supreme Court precedent,” and thus it was “objectively
reasonable for CSEA ‘to act on the basis of a statute
not yet held invalid’ ”) (quoting Pinsky, 79 F.3d at
313).
In finding a good-faith defense, we note that nothing
in Janus suggests that the Supreme Court intended
its ruling to be retroactive. Indeed, the Janus Court
held that “States and public-sector unions may no
longer extract agency fees from nonconsenting employees,” Janus, 138 S. Ct. at 2486 (emphasis supplied), and the Supreme Court reversed and remanded for further proceedings rather than apply its
new rule to the parties before it. Cf. Harper v. Va.
Dep’t of Taxation, 509 U.S. 86, 90, 113 S.Ct. 2510, 125
L.Ed.2d 74 (1993) (holding that the Supreme Court’s
“application of a rule of federal law to the parties before the Court requires every court to give retroactive
effect to that decision”). Even if the retroactivity of Janus is presumed, no different outcome is warranted. A
good-faith defense would still preclude the relief Appellants seek.
Contrary to Appellants’ second argument on appeal,
Appellees cannot reasonably be deemed to have forecasted whether, when, and how Abood might be overruled. Instead, they were entitled to rely on directly
controlling Supreme Court precedent, and in good
faith, they did so. See Agostini v. Felton, 521 U.S. 203,
207, 117 S.Ct. 1997, 138 L.Ed.2d 391 (1997) (holding
that courts, and by extension citizens, should “follow
the case which directly controls, leaving to [the Su-

10a
preme] Court the prerogative of overruling its own decisions”).
III. CONCLUSION
We have reviewed all of the remaining arguments
raised by Appellants on appeal and find them without
merit. For the foregoing reasons, we AFFIRM the
April 29, 2019 judgment of the District Court.

11a
APPENDIX B
2019 WL 1873021
United States District Court, D. Connecticut.
Kiernan J. WHOLEAN and James A. Grillo,
Plaintiffs,
v.
CSEA SEIU LOCAL 2001, Benjamin Barnes, in
his official capacity as Secretary of Policy and
Management, State of Connecticut, Sandra Fae
Brown-Brewton, in her official Capacity as Undersecretary of Labor Relations, State of Connecticut, and Robert Klee, in his official capacity as
Commissioner of the Department of Energy and
Environmental Protection, State of Connecticut,
Defendants.
3:18-cv-1008 (WWE)
|
Signed 04/26/2019
RULING ON DEFENDANTS’ MOTION TO DISMISS
Warren W. Eginton, Senior United States District
Judge

12a
*1 Plaintiffs are employees of the Connecticut Department of Energy and Environmental Protection who
paid fair-share or “agency” fees to Local 2001 prior to
the United States Supreme Court decision, Janus v.
AFSCME Council 31, 138 S. Ct. 2448 (June 27, 2018),
which held that public employers may not require
public employees to pay fair-share fees. Plaintiffs’ second amended complaint alleges a putative class action
challenging the constitutionality of requiring non-union members to pay union fees as a condition of state
employment pursuant to 42 U.S.C. § 1983. Plaintiffs
also allege one claim of unjust enrichment pursuant
to state law.
Defendant CSEA and the defendant state officials
have filed motions to dismiss, which assert that plaintiffs’ claims for declaratory and injunctive relief are
now moot. Defendant CSEA argues further that plaintiffs’ request for repayment of such fees should be dismissed because defendant had a good faith reliance on
existing law authorizing collection of such fees.
For the following reasons, the motions to dismiss will
be granted.
BACKGROUND
On a motion to dismiss, the Court considers the facts
alleged in the complaint to be true. For purposes of
considering a motion to dismiss for lack of subject
matter jurisdiction, the Court also considers factual
issues outside of the pleadings, including the affidavits attached to the motions to dismiss See State
Emps. Bargaining Agent Coal. v. Rowland, 494 F.3d

13a
71, 77 n.4 (2d Cir. 2007).
Defendant Local 2001 serves as the collective bargaining representative for a bargaining unit comprising
employees of the Connecticut Department of Energy
and Environmental Protection (“DEEP”). Plaintiffs
are not union members.
Prior to June 27, 2018, the collective bargaining
agreements governing plaintiffs’ bargaining unit required non-members to pay fair-share fees to Local
2001 to cover their portion of the costs of collective
bargaining representation.
The day after Janus was issued, Local 2001 notified
DEEP that it should stop deducting fees from nonmembers. Two days later, the State of Connecticut informed Local 2001 and other labor unions representing State employee to discontinue deducting agency
fees from non-union members. Due to the processing
time required for payroll changes, these fees were deducted from non-members’ wages for the payroll issued on July 6, 2018. However, Local 2001 did not accept those fees and sent refunds directly to the nonmembers.
Local 2001 as part of a Coalition representing all state
employee unions and the State of Connecticut signed
a formal agreement eliminating from their collective
bargaining agreements any provisions requiring payment of fair-share fees. In September 2018, the parties signed a stipulated agreement providing, in part,
“any provisions of ... [the parties’] collective bargaining agreements requiring or authorizing the collection

14a
of fair share fees from non-union bargaining unit
members without the specific affirmative consent of
such non-union members are and shall be null and
void as of the date of issuance of the Janus decision.”
*2 Plaintiffs’ second amended complaint recognizes
that “the State Defendants stopped deducting forced
fees from the Plaintiffs and class members’ wages;”
and that “the Defendants on September 17, 2018, entered a stipulated agreement which made the forced
fees provisions in the existing CBA null and void in
light of Janus.” However, plaintiffs assert that defendants “failed to notify Plaintiffs or the proposed
class that the CBA no longer requires forced fees even
though the existing CBA’s other provisions are still
ongoing until June 30, 2021.” Plaintiffs maintain that
“the bargaining unit’s membership knowledge that
the forced fees provisions continue to exist chills their
exercise of First Amendment rights to free speech and
association.” Plaintiffs allege that “Local 2001 has not
refunded the fees it collected before July 6, 2018, to
Plaintiffs and the class.” Plaintiffs maintain that defendants were on notice regarding the Supreme
Court’s misgivings about Abood and have thereby received a windfall from the unconstitutional collection
of non-members’ fees.
DISCUSSION
A motion to dismiss under FRCP 12(b)(1) “challenges
the court’s statutory or constitutional power to adjudicate the case before it.” 2A James W. Moore et al.,
Moore’s Federal Practice, ¶ 12.07, at 12-49 (2d ed.
1994). Once the question of jurisdiction is raised, the

15a
burden of establishing subject matter jurisdiction
rests on the party asserting such jurisdiction. See
Thomson v. Gaskill, 315 U.S. 442, 446 (1942).
The function of a motion to dismiss for failure to state
a claim pursuant to Federal Rule of Civil Procedure
12(b)(6) is “merely to assess the legal feasibility of
the complaint, not to assay the weight of the evidence
which might be offered in support thereof.” Ryder
Energy Distribution v. Merrill Lynch Commodities,
Inc., 748 F.2d 774, 779 (2d Cir. 1984). When deciding
a motion to dismiss, the Court must accept all wellpleaded allegations as true and draw all reasonable
inferences in favor of the pleader. Hishon v. King,
467 U.S. 69, 73 (1984). The complaint must contain
the grounds upon which the claim rests through factual allegations sufficient “to raise a right to relief
above the speculative level.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). A plaintiff is
obliged to amplify a claim with some factual allegations to allow the court to draw the reasonable inference that the defendant is liable for the alleged conduct. Ashcroft v. Iqbal, 556 U.S. 662, 129 S. Ct. 1937,
1944 (2009).
Section 1983 Claims for Declaratory and Injunctive
Relief
Plaintiffs seek entry of declaratory judgments, stating
that the forced fee provisions of the collective bargaining agreements are unconstitutional; that defendant
Local 2001 violated plaintiffs’ and class members’ constitutional rights by accepting fees from plaintiffs’
wages and failing to inform them that the CBA no

16a
longer requires forced fees; and that defendant Local
2001 unjustly enriched itself by collecting forced fees
from their wages. Plaintiffs request that the Court enjoin defendant Local 2001 from requiring, requesting,
collecting, receiving, possessing or obtaining forced
fees from nonmembers; and order defendants to notify
the employees that any relevant agreements no longer
require forced fees or automatic deduction of union
fees without an employee’s affirmative consent and
waiver of First Amendment rights.
Article III requires a live case or controversy to exist
at the time that a federal court decides a case. Burke
v. Barnes, 479 U.S. 361, 363 (1987) “Past exposure to
illegal conduct does not in itself show a present case
or controversy regarding injunctive relief ... if unaccompanied by any continuing, present adverse effects”
O’Shea v. Littleton, 414 U.S. 488, 495-96 (1974); see
also City of Los Angeles v. Lyons, 461 U.S. 95, 107 &
n.8 (1983) (subjective fear of repeated injury without
an actual threat of such injury occurring is not sufficient to establish Article III standing).
Thus, pursuant to Article III, the court lacks subject
matter jurisdiction when the question before it becomes moot. Boyle v. Midland Credit Mgmt., Inc., 722
F.3d 78, 80 (2d Cir. 2013). “Mootness can be demonstrated by showing no practical relief can follow a judicial determination of controversy.” Lillbask ex rel.
Mauclaire v. Sergi, 193 F. Supp. 2d 503, 509 (D. Conn.
2002). Significant changes in law or a defendant’s voluntary cessation of the injury-causing conduct that is
unlikely to reoccur will render moot a claim or case.
See Lamberty v. Connecticut State Poiice Union, 2018
WL 5115559, at *5 (D. Conn. Oct. 19, 2018).

17a
*3 Here, Janus overturned existing Supreme Court
precedent, Abood v. Detroit Board of Education, 431
U.S. 209, 222 (1977), which authorized public sector
unions to charge non-members for a proportionate
share of union dues attributable to collective bargaining representation. Janus, 138 S. Ct. at 2484-86 (“This
procedure violates the First Amendment and cannot
continue. Neither an agency fee nor any other payment to the union may be deducted from a nonmember’s wages, nor may any other attempt be made to
collect such a payment, unless the employee affirmatively consents to pay. By agreeing to pay, nonmembers are waiving their First Amendment rights, and
such a waiver cannot be presumed.”).
Plaintiffs’ claims for declaratory judgment and injunctive relief regarding the collection of agency fees from
non-members are moot because (1) the Supreme Court
has already determined the issue, and (2) defendants
have demonstrated that collection of such fees has
ceased and is unlikely to recur. Plaintiffs cannot assert a claim for prospective relief based on past unconstitutional conduct that has now ceased or based on a
subjective belief that the unconstitutional conduct
may reoccur. It is well established that a defendant
cannot reasonably be expected to resume conduct that
it acknowledges is contrary to binding precedent. Berman v. New York State Public Employee Federation,
2019 WL 1472582, at *3 (D. Conn. March 31, 2019).
Accordingly, the case or controversy regarding the
constitutionality of the collection of agency fees no
longer exists for this court to determine and remedy.
Defendants’ motions to dismiss will be granted because plaintiffs’ claims for declaratory and injunctive

18a
relief are moot.
Section 1983 Claim for Damages/Repayment of Fess
with Interest
Plaintiffs assert that Local 2001 continues to violate
the First and Fourteenth Amendments of the United
States constitution by retaining these fees and that
plaintiffs are entitled to a full refund with interest of
all union fees collected by Local 2001 prior to Janus.
Defendants assert that this claim is barred by the defense of good faith adherence to existing law.
Prior to Janus, the Connecticut General Statutes § 5280 authorized the collection of agency fees, which
was considered constitutional under United States
Supreme Court and Second Circuit precedent. See
Abood, 431 U.S. 209; Scheffer v Civil Service Employee Association, Local 828, 610 F.3d 782 (2d Cir.
2010).
Since Janus, courts considering similar claims have
concluded that the good faith defense is available to
private defendants faced with liability. See Akers v.
Maryland State Education Association, 2019 WL
1745980, *5 (D. Md. April 18, 2019) (noting courts
have uniformly held that good-faith defense bars refund claims); Mooney v. Illinois Educ. Ass’n., 2019 WL
1575186 (C.D. Ill. April 11, 2019) (recognizing growing consensus concluding that fees collected prior to
Janus may not be recovered). The Court incorporates
herein the extensive analysis finding that a good faith
affirmative defense is available to a private defendant

19a
facing similar claims for repayment of agency fees articulated by the district court in Mooney v. Illinois
Educ. Ass’n. See also Jarvis v. Cuomo, 660 Fed. Appx.
72, 75-76 (2d Cir. 2016) (good faith defense available
to private defendant under Section 1983). As one district court observed, “in situations where the Supreme
Court has reversed a prior ruling but not specified
that the party before it is entitled to retrospective
monetary relief, it seems unlikely that lower courts
should even consider awarding retrospective monetary relief based on conduct the Court had previously
authorized.” Bermudez v. Service Employees International Union, Local 521, 2019 WL 1615414, *1 (N.D.
Calif. April 16, 2019). Defendant Local 2001’s motion
to dismiss will be granted on the basis of the good faith
defense.
Unjust Enrichment
*4 Plaintiffs have alleged a state law claim of unjust
enrichment. Pursuant to 28 U.S.C. § 1367(c)(3), The
Court will decline to exercise supplemental jurisdiction over the such state law claim. This claim will be
dismissed without prejudice.
CONCLUSION
For the foregoing reasons, the motions to dismiss [doc.
37 and 39] are GRANTED. Plaintiffs’ claims for prospective declaratory and injunctive relief are dismissed as moot; plaintiffs’ claims for compensatory
damages or repayment of fees with interest are dismissed based on the affirmative defense of good faith
reliance on existing law. The Court declines to exercise supplemental jurisdiction over plaintiffs’ state

20a
law claim for unjust enrichment, which is dismissed
without prejudice. The clerk is instructed to close this
case.

21a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of June, two
thousand twenty.
_____________________________
Kiernan J. Wholean, James A. Grillo,
Plaintiffs - Appellants,
Lakiesha Christopher,

AMENDED ORDER
Docket No. 19-1563

Plaintiff,
v.
CSEA SEIU Local 2001, Benjamin
Barnes, in his official capacity as Secretary of Office of Policy and Management, State of Connecticut, Sandra
Fae Brown-Brewton, in her official capacity as Undersecretary of Labor Relations, State of Connecticut, Robert

22a
Klee, in his official capacity as Commissioner of the Department of Energy and Environmental Protection,
State of Connecticut,
Defendants - Appellees,
Kevin Lembo, in his official capacity as
Comptroller, State of Connecticut,
Defendant.
___________________________________
Appellants, James A. Grillo and Kiernan J.
Wholean, filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the
Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe,
Clerk

